i% ■'
fj J.

er
O

€>

No.

ORIGINAL
Supreme Court. U.:>.
FILED

i

SEP 17 aa
OFFICE OF THE C

\
\

IN THE
SUPREME COURT OF THE UNITED STATES

Norris Williams

— PETITIONER

(Your Name)
vs.
United fit-af-go

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Norris Williams
(Your Name)
FCC Coleman Medium. P.0 Box im?
(Address)
Coleman, Florida 33521
(City, State, Zip Code)

Received
(Phone Number)

OCT - 8 2021

QUESTIONS PRESENTED
1.

When a defendant in an investigation savs “No” is it a 5th amendment violation.
When does the investigation stop?

2.

When new evidence is made available in a Habeas Corpus proceeding, is the
conviction automatically no longer valid?

3

CONSTITUTIONAL AND STATUTORY PROVISIONS
U.S. Constitutional Amendments)
5th Amendment

6,8

6th Amendment

6,8,9

Table Of Authorities.
FEDERAL RULE OF CRIMINAL PROCEDURE 33

5

18 U.S.C § 4Bl.l(a)

8

21 U.S.C 841 (a)(1)

4

21 U.S.C 841 (b)(1)(c)

4

28 U.S.C 2255

4,7,9,10

4

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

INDEX TO APPENDIX

2

QUESTIONS PRESENTED

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4

CASES

5

STATEMENT OF THE CASE

6

REASONS FOR GRANTING THE WRIT

6,7,8

ARGUEMENT

.8,9,10

CONCLUSION

14

OPINIONS BELOW
1.

28 U.S.C 2255 was denied on October 30,2020, Case No. 2:19-cv-27l-FtM-38-MRM the case was not
published

2.

Court of Appeals dismissed appeal for want of prosecution on January 25,2021, USCA11 Case: 2014588

3.

March 10,2021, the Court of Appeals Clerically re-instated Appeal Case No. 20-14588

4.

April 20,202J, the Court of Appeals Denied the Appeal without Opinion.
1

5.

Petitioner filed for an extension of time with this court due to Covid-19.

JURISDICTION
This Court have jurisdiction pursuant 28 U.S.C 1251.
1. Petitioner asked this court for an extension of time to file this writ this court issued a
mandate due to Covid-19 and the extension of time.
2. The Court of Appeals Denied the Appeal on April 20,2021 the Mandate was issue on
May 20,2021.

INDEX TO APPENDIX
APPENDIX A- Court of Appeals decision
APPENDIX B- District Court R&R.
APPENDIX C- Copy of Evidence Received From FOIA.
APPENDIX D-Rule 33 Motion
APPENDIX E- Court of Appeals decision
APPENDIX F- 28 U.S.C 2255
APPENDIX G- Declaration of KELLEIGH MILLER
APPENDIX H-District Court Judge Opinion In Washington Dc
2

Cases
.9

Haines v. Kerner 404 U.S. 519 (1972)
Jacobson v. United States 503 U.S. 540 (1992)

,9

Mathews v. United States 485 U.S. 58 (1988)

7

Ramos v. Louisiana 590 U.S.__ (2020)

11

United States v. Eaden, 914 F.3d 1004 (5th Cir. Feb 5 2019)

10

United States v. Isnadin 742 F.3d 1278,1308 (11th Cir. 2014)

,8

United States v. Kopstein 739 F.3d 168 (2nd Cir 2014)

10

United States v Lafreniere 236 F.3d 41,47,48 (1st Cir. 2001)

9

United States v. Lorenzo 43 F.3d 1303.1305,07 (5th Cir 2020)

10

United States v. Mars 701 F.2d 1321 (ll,h Cir. 1983)

8

5

STATEMENT OF THE CASE
Police in Fort Myers’ Florida conducted a reverse sting operation, on Petitioner Norris Williams over a course
of 6 months to a year. Petitioner was “given "(yes given drugs,) on behalf of the Fort Myers police department.
The detectives that worked on this case “induced” Petitioner to accept a larger quantity of drugs. The first initial
transaction started with 7 grams of Heroin, then it turned to another 7 grams it did not end when Petitioner
“stated” he did not “want”to purchase a Kilogram. The detectives continuously pursued for months even
though he told them '“No

Petitioner did not even have money to purchase a half of a Kilogram but was given

a Kilogram. Then Petitioner suggested that he wanted a half of Kilogram of Heroin, because he was “scared’
he was “dealing with a large-scale " organization, that could potentially hurt and kill him if he did not return
the money that would be owed. First (over a 3-month period) Petitioner told Officers “NO” (at Petitioners trial
the Detective testified that the BUYER determines how much drugs is bought and sold not the seller”)
Petitioner told the officers “I am not able to purchase a Kilogram ofHeroiii’ (he would “onlypurchase”
what he could afford based on the sales from Heroin that he was given from the officers). As the case developed
the Petitioner was “induced”by the said officers to “purchase”a kilogram. Petitioner was introduced to the
officers by two informants that Petitioner have met while incarcerated. October 28,2015, the Federal grand jury
in the Middle District of Eorida issued a four-count indictment charging Norris Williams with Possession with
intent to Distribute Heroin, in Violation of 21 U.S.C 841 (a)(1), 21 U.S.C 841(b)(1)(C) Counts 1,2,3 Count 4
Attempt Possession with intent to Distribute a kilogram or more of Heroin in Violation of 21 U.S.C 841(a)(1)
and 21 U.S.C 841(b)(1); Count 4 (Cr DE:12). Petitioner exercised his right to go to trial2 Petitioner went to trial

1 https://ponce-brutality.usatlorneys.com/does-the-fort-myers-police-department-have-a-history-of-police-misconducty
2 Prior to going to trial Petitioners then attorney Russell K. Rosenthal was replaced with David J. Joffe (that’s when everything went
downhill (“like a rollercoaster on Mount Everest with no breaks) 4 months before (how is a trial going to be fair when a new counsel
was appointed then defendant goes to trial hastily after attorney appointment. Petitioner asked Mr. Joffe for a Motion to suppress to
no-avail non was filed. Then Petitioner asked to file a request for discovery and evidence, also to challenge the indictment on the
grounds that it was insufficient. Petitioner received no information pertaining to trial until the day in which trial began (that was and
still is a violation of Cronic v United States 466 U.S. 484 (1984)
6

on April 5, 20163 The trial lasted 3 days4 (Cr DE:89,90,9I). On April 8,2016, the jury returned its verdict

finding Petitioner guilty of ail counts 1,2,3 and 4 (Cr DE: 80,91,50-53) Petitioner was sentenced to 240 months
(about 20 years) for counts 1,2 and 3 and 360 months (about 30 years) for counts 4 to be served concurrently
with 3 years supervised release to counts 1,2 and 3,5 years supervised release to count 4 to be served
concurrently. The court waived fines and ordered the Petitioner to pay a 400.00 assessment. Petitioner exercised
his right to appeal (Cr DE:110). On Appeal Petitioners Attorney did not consult with Petitioner about any of the
issues. The petitioner was taken to trial without sufficient evidence. The evidence, that was needed for Trial,
Petitioner’s5 attorney did not make the finding that was necessary to bring the evidence to trial. Petitioner made
numerous requests to his attorney for trial preparation. The Federal Rule of Criminal Procedure 33 motion was
filed. The petitioner filed a rule 33 motion for a new trial to district the court, among other things to bring to the
courts' attention that there was evidence that could potentially overturn his case. The grounds raised were based
on the evidence not yet made available to Petitioner. The Petitioner then filed a FOIA request. The FOIA
response from the DEA (Drug Enforcement Agency) stated “they have information” pertaining to the case in
which they will not release. Petitioner filed to the district court and the court of appeals bringing those matters
to both court's attention. Both courts dismissed and denied those motions without reviewing the accuracy of the
claims that were brought before them. Petitioner Direct appeal was denied in December of 2017, without the
benefit of oral argument. The court of appeals stated that Petitioner's attorney is still on the case, “he should
consult with his attorneyAttorney David Joffe did not consult with Petitioner at all regarding filing a direct
appeal instead he raised the following grounds;
1. Whether the Evidence was insufficient to support conviction as to count 4

3 f>r'or t0 tr'al Petitioner asked for an entrapment defense the court accepted but never instructed the jury as to what constitutes
entrapment instead “conceded’ that Petitioner's testimony was credible and will not impeach Petitioner.
4 At trial Detective Victor Chica” and Rodriguez testified that the buyer dictates how much drugs is purchased “not”the seller see
Melendez-Diaz v. Massachusetts 537 U.S. 305(2009) quoting White v. Illinois 502 U.S. 346 (1992)
5 Petitioners Attorney failed to file a Federal Rule of Criminal Procedure 33 motion When the District court Judge stated “Entrapment
is a good defense instead he filed a rule 29 motion that prejudiced Petitioner to receive an erroneous jury instruction that caused him to
lose trial.
7

2. Whether the District court erred in permitting the government to introduce inadmissible evidence that .
prejudicially impacted the jury verdict.
3. Whether the District court erred in denying Mr. Williams' motion for judgement of Acquittal.
4. Whether the District court committed sentencing errors.
Petitioner tried Numerous times to contact his attorney. The fact that his attorney did not respond to his request
lead the Petitioner to file the FOIA request. That request led Petitioner to filing a Civil Suit in Washington D.C.
The nature of That Suit revealed over 200 plus pages of documentation that revealed that the government Plainly
stated “the defendant should not have these documents until his appeal is over and the case is closed”
Petitioner filed a 28 U.S.C 2255 challenging among other things the constitutionality of the trial proceedings,
Petitioner also challenged the fact that he has recovered documents in relation to his case and the nature of those
documents having the ability to vindicate him and potentially freeing him. The district court Judge Denied the
motion without accepting the document in which he have acquired. Petitioner have filed an appeal to the denial
of the motion. Due to Covid-19 Petitioner did not receive notice of his denial until after the time to file to motion
to reconsider have elapsed. Petitioner motion for appeal was denied on April 20,2021.

REASONS FOR GRANTING THE PETITION
The circuit court’s interpretation of Matthews v United States 485 U.S. 58 (1984) is misplaced. Matthews set a
clear standard on what constitutes entrapment-inducement when defendant or a civilian says “NO"that
statement should clearly end the investigation. The issues presented in this petition are one of importance there
is no uniform rule for inducement in all circuits. Every circuit has its own interpretation of inducement or
entrapment. Day after day hundreds6, if not thousands, minorities are being arrested for government induced
crimes based on their economic status and race, if they are not a victim of police misconduct, they are either

6 https://www.ussc.gov/sites/defauU/files/pdf/research-and-publications/annual-repons-and-sourcebooks/2020ATablel2.pdf
8

murdered or arrested on induced crimes. Thousands are convicted yearly. Matthews and Jacobsen v. U.S,
clearly set the stage as to what constitutes government induced charges that are affecting the 151 2nd 5Ih-9th l l'1',
circuits. This petition would clarify the misplaced rule in courts below for instance, Petitioner went to trial by a
jury of his peers a right guaranteed under the 5th and 6lh amendment of the U S constitution which entitled
Petitioners due process of law and the right to a fair trial7. Petitioners then attorney asked for the entrapmentinducement instruction to which the court clearly established that inducement was present. In the 11th circuit
there is no jury instruction as to inducement. It is precedent in the 11th circuit that states “A defendant cannot
avail himself of an entrapment defense unless the initiator of his criminal activity is acting as an agent of the
government aw United States v. IsNadin 742 F.3d 1278,1308 (11th Cir. 2014) quoting United States v Mars,
701 F.2d J321 (11th Cir. 1983).

II.
The 28 U.S.C 2255 Habeas Corpus proceeding gives defendants the ability to challenge the constitutionality of
their convictions and-or-how the sentence was carried out. When a defendant in a criminal proceeding exercises
their right to go to trial a defendant does not give up any of his/her constitutional rights. Here, like in numerous
criminal cases, defendants have an issue with evidence discovered after the conviction becomes final. Petitioner
received evidence when he filed a FOIA request with the district court in Washington D.C. during those
proceedings a DEA personnel provided a declaration stating, “that the evidence that is being withheld could
overturn petitioners' conviction8 Petitioner filed in his initial 28 U.S.C 2255 proceeding he acquired
evidence that was unavailable at trial. The district court judge in the proceeding dismissed the petition.
Congress intent in the 28 U.S.C 2255 proceeding is that defendants can present “newly discovered evidence”

7 Sir Edward Coke quoted see 2 institutes (5th ed 1797) Coke used the phrase “due process of Law” in the 1354 Statue with the phrase
“law of the Land” in Chapter 29 of the Magna Carta (Chapter 39 of the Original Magna Carta signed by King John of Runnymede in
1215), which provides “No Freeman shall be taken, or Imprisoned or be disseized of his Freehold, or Liberties or free customs, or be
outlawed, exiled or any otherwise destroyed. Nor will we not pass upon him nor condemn him, but by lawful Judgement of his peers,
or by the Law of the Land.” 9 Hen III, Ch 9 (1225).
F
8 See declaration of KELLEIGH miller

9

Here the newly discovered evidence” Standard have been violated when petitioner was not given the
opportunity to present that evidence to the district court.

ARGUMENT
I.
When a defendant in an investigation savs “No” is it a 5th amendment violation for the
agency that conducts the investigation to still pursue. When does the investigation ston?

Comes now, Petitioner Norris Williams “Petitioner” who files this motion pro Sprays that this court construe
this motion liberally see Haines v Kerner 404 U.S. 519 (1972). Matthews v. United States 485 U.S 58(1988)
clarified the standards of what constitutes inducement when a defendant not willing to accept nor partake in a
conspiracy. Here Petitioner just as the Petitioner in Mathews v U.S 485 U.S. 58(1988) have chosen to withdraw
from the act in which he is convicted of. Petitioner just as numerous Petitioners who are similarly situated have
no defense just as congress have not set no unified rule as in what regulates against this. The petitioner brings
this motion with good faith and prays that this court Grant Certiorari for the following reasons;
Petitioner brings this petition before the courts because the ruling from the district court on 28 U.S.C 2255 motion
is arbitrary petitioner raised the following issue on 28 U.S.C 2255;
1. Petitioner was prejudiced in his Fifth and Sixth Amendment right to present a defense because trial counsel
never gave Petitioner his complete discovery or documents pertaining to the charges filed.
2. Petitioner's Fifth Amendment Due Process Rights were violated when he was not given the inducement
instruction. Petitioner’s Fifth Amendment Due Process Rights were violated when Petitioner requested a
10

jury instruction on inducement when the circuit precedent authorizes Petitioner the ability to present the
Inducement Instruction.
A. Whether the Requested Instruction is a Substantially Correct Statement of the Law.
3. Defense counsel was ineffective when counsel did not object to the introduction of testimony related to
the chemical analysis and weight of the drugs at issue.
4. Counsel was ineffective for failing to argue that Petitioner did not have two prior convictions to support
an enhanced sentence under the career offender guidelines pursuant to USSG § 4B1.1(a)
The issue presented within this motion is something of an anomaly, where is it that someone exercises their right
to go to trial based on a series of drug transactions that were presented, by the said agency that is meant to serve
and protect. Norris Williams, a veteran, was down on his luck. Presented with an idea in which he complied, then
when it was not in his interest, he withdrew. Petitioner was arrested, he was given an attorney who portrayed the
role of the adversary to the ones who arrested him. Going to trial is a fundamental tight entitled by “All
Americans” Under the 6Ih Amendment of the United States Constitution. Being induced to commit a crime is
something that happens every day. Not having anything then being presented with an idea on how to resolve y our
poverty is called inducement. The Eleventh circuit have no clear Uniform jury instruction on Inducement as the
other circuits have for instance the First Circuit controlling authority is U.S v. Lafreniere 236 F.3d 41,47,48 (1st
Cir. 2001) Second U.S. Kopstein 739 F.3d 168 (2nd Cir. 2014) also United States v. Eaden, 914 F.3d 1004 (5th
Cir. Feb. 5, 2019). The "Fifth Circuit vacated and remanded the defendant’s sentence for possession of
ammunition by a felon, holding that there was “insufficient evidence to support” imposition of the 4-level
enhancement at §2K2.1(b)(6)(B). Although there was evidence that ammunition was near illegal drugs, the
court stated, the government must show additional evidence that the nearby ammunition ‘facilitated or
had the potential offacilitating” the other offense, and Ninth Circuit in United States v Lorenzo 43 FJd
1303, 1305, 1305-07"see United States v. Eaden, 914 FJd 1004 (5th Cir. Feb. 5, 2019). Petitioner’s trial
resulted in a conviction that could have been avoided had the district court Grant the Petitioner the ability to have
11

the inducement instruction. The 6,h amendment of the U.S Constitution was violated when Petitioner have moved
to go to trial and was 'W07wprovided with the sufficient evidence. “The Sixth Amendment guarantees the rights
of criminal defendants, including the right to a public trial without unnecessary delay, the right to a lawyer, the
right to an impartial jury, and the right to know who vour accusers are and the nature of the charges and evidence
against you "see https://wwwJawxoraeU.edu/comtitutioB/sisth_amendment Here the 6th amendment has
been violated when the petitioner was taken to trial for a charge that he was induced to commit. Petitioner Prays
that this court grants this Petition and argue this issue on the merits.
II.
When New Evidence Is Made Available In A Habeas Corpus Proceeding, Is The
Conviction Automatically No Longer Valid?
The 28 U.S.C 2255 was signed into law on June 25,19489 The 28 U.S.C 2255 was drafted by congress to give
Petitioners the ability to challenge the constitutionality of their conviction. Here petitioner challenged his

9 (•)
A nrUnner in
sent™™ of n court established by Act of Confess claiming the mhUO be released upon the wmd that the sfitftm
impend in
violation of the. Constitution nr laws of the United States or that the court was without jurisdiction to impose such sentence, or that the sentence was in excess of the
maximum authorized by law, or is otherwise subject to collateral attack, may move the court which imposed the sentence to vacate, set aside or correct the sentence.
(b)
Unless the motion and the files and records of the case conclusively show that the prisoner is entitled to no relief, the court shall cause notice thereof to be served upon
the United Stales attorney, grant a prompt hearing thereon, determine the issues and make findings of fact and conclusions of law with respect thereto. If the court finds
that the judgment was rendered without jurisdiction, or that the sentence imposed was not authorized by law or otherwise open to collateral attack, or that there has been
such a denial or infringement of the constitutional rights of the prisoner as to render the judgment vulnerable to collateral attack, the court shall vacate and set the judgment
aside and shall discharge the prisoner oi resentcnce him or grant a new trial or correct the sentence as may appear appropriate.
(c)

A court may entertain and determine such motion without requiring the production of the prisoner at the heating.
(d>
An appeal may be taken to the court of appeals from the order entered on the motion as from a final judgment on application for a writ of habeas corpus
(e)

An application for a writ of habeas corpus in behalf of a prisoner who is authorized to apply for relief by motion pursuant to this section, shall not be entertained if it
appears that the applicant has failed to apply for relief, by motion, to the court which sentenced him, or that such court has denied him relief, unless it also appears that
the remedy by motion is inadequate or ineffective to test the legality of his detention.
tfU l.wwr rmrinri of limitation shall annlv to a motion under this section. The limitation Period Shall

12

from III? toUSLOt-

indictment by going to trial “ This Court has long explained that the Sixth Amendment right to a jury trial
is “fundamental to the American scheme ofjustice” and incorporated against the States under the
Fourteenth Amendment. This Court has long explainedthat incorporatedprovisions ofthe Bill ofRights
bear the same content when asserted against States as they do when asserted against the federal
government” see Ramos v. Louisiana 590 U.S_ _ (2020). The District Court ruling was incorrect, 28 U.S.C
2255 was created to grant defendants the ability to bring “newly discovered”to the court's attention, Petitioner
was not given that ability. He exercised his right to go to trial, he did not have sufficient evidence, the evidence
that was not available, became available when Petitioner filed a FOIA request. The Supplement to the 28 U.S.C
2255 was filed the district court did not accept that information and that resulted in a miscarriage of justice, the
miscarriage of justice exception applied when Petitioner gone to trial without sufficient evidence, then that

(i)
the date on which the judgment of conviction becomes final;
(2)
the (iflte on which the impediment to making a motion created bv governmental action in violation of the Constitution or laws- of thr
movant was prevented from tnakine a motion bvsuch governmental action:

,em,weri -,f ,h„

(3)
the date on which the right asserted was initially recognized by the Supre me Court, if that right has been newly rcco gnized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
(4)
the dale on which the facts supporting the claim or claims presented could have been discovered through the exercise of due dili$ pnrp
(g)
Except as provided in section 408 of the Controlled Substances Aci, in all proceedings brought under this section, and any subsequent proceedings on review the court
may appoint counsel, except as provided by a rule promulgated by the Supreme Court pursuant to statutory authority. Appointment of counsel under this section shall be
governed by section 3006A of title 18.
(h)A second or successive motion must be certified as provided in section 2244 by a panel of the appropriate court of appeals to contain(I)
newly discovered evidence that, if proven and viewed in light of the evidence as a whole, would he sufficient to establish bv clear and convincing evidence that
no
reasonable factfinder would have found the movant euiltv ofthe offense• or
(2)
a new rule of constitutional law, made retroactive to cases on collateral review by the Supreme Court, that was previously unavailable.

13

evidence became available during the habeas corpus proceedings. Petitioner prays that this court grant this Writ
Vacate the judgement of the district court and remand for resentencing based on the “newly discovered
evidence.

Conclusion”
Petitioner Prays that this court grant certiorari vacate the judgement of the lower court and remand to the
district court.

14

